No. 19-871

 

 

IN THE

Supreme Court of the Anited States

RAHEEM JOHNSON,

Petitioner,
Vv.

JEFFREY KISER, WARDEN,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Virginia

REPLY BRIEF IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,605 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 4, 2020.

 

Colin Casey Mogan
Wilson-Epes Printing Co., Inc.
